NATIONAL RAILROAD PASSENGER CORPORATION
                        Office of the Inspector General




                                               APRIL 1, 2007 – SEPTEMBER 30, 2007


                                   Semiannual Report
                                         to Congress
Cover Photo: Amtrak California Zephyr
NATIONAL RAILROAD PASSENGER CORPORATION

                              Office of the Inspector General




                                                    Semiannual Report
                                                          to Congress




                                                                                 REPORT NO. 36
                                                            APRIL 1, 2007 – SEPTEMBER 30, 2007
                                            NATIONAL RAILROAD PASSENGER CORPORATION
                                                 Office of the Inspector General, 10 G Street, NE, 3W-300, Washington, DC 20002-4285




October 31, 2007

Honorable Donna McLean
Chairperson
Amtrak Board of Directors

Dear Ms. Chairperson:

On behalf of the Amtrak Office of Inspector General, I am pleased to present this Semiannual
Report to Congress. Our Report highlights significant audits, evaluations, and investigations
for the six-month period ending September 30, 2007. During the reporting period, we issued
12 audit reports with questioned costs of $207,435.

We performed audits of Amtrak’s compliance with the Payment Card Industry (PCI) Data
Security Standards (DSS), and of Locomotive Fuel Charges Processed Through eTrax, identi-
fying $105,000 in duplicate or erroneous fuel charges. We also reviewed Amtrak’s FY 2006
Capital Project Budgeting, Submissions, and Approval Processes.

Our investigators and special agents opened 58 new cases in the past six months and closed 71
cases; 276 investigations remain active as of September 30. We made 10 criminal referrals to
federal prosecutors, obtained three criminal convictions/pleas, two declinations, and we have
four cases pending prosecutorial review. Our more significant casework included revenue
protection and referring embezzlement cases to Amtrak management for disciplinary action.

The OIG Inspections and Evaluations has sponsored and is helping to facilitate an initiative to
improve the efficiency and effectiveness of the material supply chain in providing parts and
materials for Rolling Stock maintenance. Cross functional teams have been established to
evaluate current practices in demand planning, supplier management, order fulfillment and
warranty management. Facilitated by industry experts from the Thomas Group, the teams are
reviewing current processes and revising them to more align with industry best practices. The
OIG anticipates continuing in this facilitation role for another year and then producing a
report that documents the overall results. In addition, Inspections and Evaluations has been
evaluating the efficiency and effectiveness of Amtrak’s Right–of–Way maintenance programs.
As part of this effort, the OIG engaged a European consultant that has extensive experience
evaluating the infrastructure maintenance programs of European Railroads.
Honorable Donna McLean
October 31, 2007
Page 2




During this period, Amtrak abolished its Risk Management Department and reorganized its
security assets. As part of the restructuring, the Amtrak Police department became aligned
with the Operating Department and the OIG Counter-Terrorism and Intelligence Unit transi-
tioned from an oversight entity and assumed expanded responsibilities as the Office of
Security Strategy and Special Operations (OSSSO). The OSSSO, working closely with
Amtrak Police, has developed and resourced protocols for emergency response, passenger
screening, visible deterrence, intelligence, policy and resourcing, and public awareness initia-
tives, among others. These initiatives are currently being implemented in stages.

While part of the OIG, the Counter-Terrorism and Intelligence Unit successfully pioneered
new security paradigms for Amtrak, and placed increased emphasis on protecting passengers,
employees and infrastructure through partnerships with Federal, State, regional and local
governments, as well as with other public and private partners. Many of the efforts initiated
by the OIG will transfer to the OSSSO. The OIG will, however, continue to provide security
oversight and review of the OSSSO progress, in keeping with its statutory mission.

We realize that FY 2008 will be a pivotal year for Amtrak as Congress considers Amtrak’s
reauthorization, and we support the Board and management’s efforts to have constructive
dialogs with the Administration and Congress in charting Amtrak’s future direction. I also
want to express my appreciation for the cooperation and support we regularly receive from
Congress. Finally, I want to recognize the extraordinary dedication and professionalism of the
OIG’s staff.

Respectfully,



Fred E. Weiderhold, Jr.
Inspector General
                                                                                                 Table of Contents
Inspector General Viewpoint                                                                 Office of Inspections and Evaluations
FY 2007 Year-End Results . . . . . . . . . . . . . . . . . . . . . . . . . 1                Significant Inspections and Evaluations . . . . . . . . . . . . . 18
Amtrak’s Challenges and Opportunities . . . . . . . . . . . . . . 1
Safety and Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
                                                                                            Office of Counter-Terrorism
                                                                                            and Intelligence
Amtrak Profile                                                                              Significant Counter-Terrorism and Intelligence Efforts . . 20
Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
                                                                                            Other OIG Activities
                                                                                            Coordination with Independent Public Accountants . . 21
Office of Audits                                                                            Teammate Implementation . . . . . . . . . . . . . . . . . . . . . . . . 21
Significant Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6      Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Audit Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Unresolved Audit Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Management Responses Over Six Months Old for                                                Appendices
Which Corrective Action Has Not Been Taken . . . . . . . . 9                                1. Audit Reports Issued with Questioned Costs . . . . . . 24
                                                                                            2. Audit Reports Issued with Funds
                                                                                               to be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . 25
Office of Investigations                                                                    3. Detailed Listing of All Issued Audit Reports . . . . . . 26
Case Status of Investigation . . . . . . . . . . . . . . . . . . . . . . . 11               4. Summary of Reports to President of Amtrak
Case Handling . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11         Concerning Information or Assistance
Sources of Allegations . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11              Unreasonably Refused or Not Provided . . . . . . . . . . 27
Hotline Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11     5. Review of Legislation and Regulations . . . . . . . . . . . 28
Classification of Cases Opened During Period . . . . . . . 12                               6. Glossary of Audit Terms and Abbreviations . . . . . . 29
Significant Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Joint Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Revenue Protection Unit . . . . . . . . . . . . . . . . . . . . . . . . . . 16
                                                                                            Reporting Requirements Index
Prosecutive Referrals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17          Reporting Requirements Index . . . . . . . . . . . . . . . . . . . . 30
                                        Inspector General Viewpoint
FY 2007 YEAR-END RESULTS                                           Amtrak was the beneficiary of a number of external
                                                                   economic factors, including rising fuel prices and a signifi-
Amtrak completed the fiscal year with $2.153 billion in total      cant deterioration in airline on-time performance and
revenue ($1.730 billion in passenger related revenues); total      worsening customer service in that sector. To its credit,
revenue was 5.4 percent greater than FY 2006, with                 Amtrak took advantage of these economic and market
passenger revenues up 10.5 percent. Total expenses were            conditions. Amtrak improved on-time performance on the
$3.109 billion. Amtrak’s adjusted losses, before deprecia-         Northeast Corridor, with Acela on-time performance
tion, were $1.051 billion, $16.5 million better than last fiscal   almost reaching its 90 percent on-time goal. More impor-
year.                                                              tantly, Amtrak’s revenue yield per passenger mile increased
Total ridership for the year was 25.86 million, with Acela         to $.27, continuing an improvement trend for the past three
being a major driver of performance. Acela’s overall               years. Amtrak also reduced its total net loss year over year.
performance, and the challenges to maintaining and
improving upon FY 2007’s results, is discussed below.
Amtrak’s other Northeast Corridor services, the Regionals,
                                                                   AMTRAK’S CHALLENGES AND
posted a seven percent increase in revenues, with a one            OPPORTUNITIES
percent increase in ridership.                                     Amtrak is well-positioned to continue to make incremental
At the national, non-NEC level, ridership and revenue              improvements in its overall performance for the next
performance was mixed. For Amtrak’s sixteen long                   several years, but there are risks to this upward trend
distance services, Amtrak ended the year slightly favorable        depending upon how well some key risk areas are managed.
to the prior year in both revenue (+5.0%) and ridership
(+2.4%). Shorter distance state and regional corridors             REVENUE OPPORTUNITIES
performance was also up, ridership was up 7.6% over FY             With the year-end results in, it is clear there is a window of
06, and revenues were up 9.0%. There was some note-                opportunity for Amtrak to continue to garner additional
worthy growth in the State of Illinois services (Chicago-St.       passenger revenue growth in FY 2008. Gasoline prices are
Louis posting a 55.8 percent ridership growth) reflecting the      continuing to rise, with little likelihood of abatement for
addition of two new frequencies; the Capitol Corridor              some time, and congestion and delays at major airports are
Service (San Jose-Sacramento) posting a 14.8 percent               taking their toll on the patience of air travelers. Amtrak’s
increase in ridership; and the Keystones (Philadelphia-            Acela revenues exceeded $400 million in FY 2007, and
Harrisburg) posting a 20.1 percent gain, also due to the           Amtrak has yet to deploy a 17th trainset into scheduled
addition of new frequencies and an improved schedule.              revenue service (out of the 20 available trainsets); the
                                                                   customer demand for rail services in the Northeast Corridor
                                                                   is there. Increased availability of Acela frequencies, and
                                                                   continued consistent and reliable on-time performance, will
                                                                   make Acela a preferred travel choice.
                                                                   The challenge for Amtrak is to protect and indeed increase
                                                                   its market share, ensure the continued reliability and avail-
                                                                   ability of Acela in the Northeast Corridor, exploit
                                                                   opportunities on the New York to Boston market, and
                                                                   improve load factors for the off-peak frequencies. Amtrak
                                                                   is working toward greater differentiation of the Acela
                                                                   product, replacing seating and interior appointments,
                                                                   exploring continuous Wi-Fi connectivity, and rewarding
                                                                   frequent travelers. These actions may help attract and hold
                                                                   some customers. The OIG believes that Amtrak needs to
                                                                   redouble its efforts to keep Acela reliability and availability
                                                                   as high as possible. This means the company should achieve
Keystone Service | near Lancaster, PA                              greater than a 90 percent on-time performance, and should
                                                                   successfully deploy its 17th trainset in early FY 2008. The

                                                                                                   Inspector General Viewpoint   1
                                                                as their payments increase, they will want to see higher
                                                                quality and more reliable service. During the past year, as
                                                                noted earlier, several states added frequencies to their
                                                                routes and experienced significant incremental gains in
                                                                ridership. Amtrak is appropriately repositioning its
                                                                management resources to support these new services and
                                                                plans for smart growth with these state partners. In the
                                                                short term, Amtrak must establish an equipment acquisition
                                                                strategy and find sufficient passenger equipment to satisfy
                                                                the states’ growing needs.

Acela Express | Northeast Corridor                              EXPENSE CONTAINMENT
                                                                Approximately fifty percent of Amtrak’s operating
company must also re-examine its placement of the new           expenses relate to employee wages, salaries, and benefits. It
“Express” service as it does not appear the current schedule    follows that even small improvements in productivity, when
is achieving the desired results. The larger economic risks     applied across the entire system, can generate significant
to sustained growth include the possibility of an economic      savings. As Amtrak ends the fiscal year, Amtrak and most
downturn (recession) and any actual or perceived security       of its major labor unions are operating without having
threat to the transportation systems.                           settled major labor-management agreements. Amtrak must
                                                                continue to be very attentive to the need for the successful
With respect to the long-distance services, the OIG had         settlement of these negotiations, as the final trade-off
issued a report on the importance of on-time performance        between wage and benefit increases and work rules must be
last year. Additionally, there is a report due from the DOT     accommodated within the reauthorization funding levels.
OIG regarding off-corridor on-time performance in early
FY 2008. We recommend that Amtrak concentrate its               With respect to capital spending, much of Amtrak’s capital
improvement of on-time performance toward four of the           budget in recent years has been invested in restoring the
sixteen long distance routes, specifically the Autotrain        ‘state of good repair’ to the Northeast Corridor. The OIG is
service, the Coast Starlight, the San Francisco Zephyr, and     in strong support of this initiative, but we believe more
the New York-Florida Silver Services. We also have recom-       work is required to bound the effort and lay out a more
mended previously that Amtrak closely examine its               rigorous analysis of return on capital invested. Amtrak
long-distance ‘business model’ for some routes. Amtrak          needs to delineate specifically the results of these large
needs to move away from a ‘speed’ model for certain routes      investment programs and the resulting impacts on revenue
and consider a ‘service’ or ‘rail experience’ model. Amtrak     and expense reduction. For example, Amtrak can prescribe
needs to better exploit the entirety of the rail experience     a level of utility (class of track to permit high-speed opera-
along the route by marketing the intermediate route desti-      tions) for all sections of the Northeast Corridor track
nations, partner with state and local entities and businesses   infrastructure. Amtrak can categorize the incremental costs
along the route, promote more stopovers, and position its       for maintaining track at Class 7 (MPH) or Class 8 (MPH),
product differently (akin to the Canada’s VIA model I           and can tie revenue projections to scheduled performance.
reported upon in prior Semiannual Reports, or the cruise        Amtrak has approximately 950 miles of high speed mainline
ship experience).                                               tracks (high speed as defined by the FRA are class 6, 7 and
                                                                8 tracks - 110 to 150 mph); with 1600 total mainline track
Short-distance rail services also represent real growth         miles. Other efforts can be oriented to major bridge and
opportunities for Amtrak —- as an operator and maintainer       tunnel work, e.g. - to keep the useful life of an asset within
of those services, and as a supplier of other passenger rail    90 percent of its expected useful life before replacement.
services. The challenge for Amtrak is to continue to offer      Additionally, a more complete inventory of major programs
rail-related services that current, and prospective, state      and projects, by asset type, should be maintained and
partners perceive as ‘value added’ and worthwhile. Most         shared with Congress and rail partners.
states are willing to pay more for Amtrak in their state, but



2    Inspector General Viewpoint
SAFETY & SECURITY
SAFETY
While Amtrak’s overall safety performance has been slowly
improving, establishing a well-embedded safety culture in
the railroad is a difficult and long-term task. The OIG
would like to see Amtrak work more aggressively to
looking beyond the injury statistics alone, which are still less
than optimal among major Class I railroads. Amtrak has
reinstated its System Safety program, and the program
needs to be fully integrated and as robust as possible.

SECURITY
During the reporting period, the OIG transferred its
Counter-Terrorism and Intelligence assessment unit to the
newly formed Office of Security Strategy and Special               Capitol Limited
Operations (OSSSO). The OIG will continue to perform
critical assessments of Amtrak’s overall security prepared-
ness and the newly formed OSSSO. We will also monitor
the new program and project initiatives that will be funded
under the recently passed Homeland Security authorization.




                                                                                     Inspector General Viewpoint   3
Amtrak Profile
BACKGROUND
The National Railroad Passenger Corporation (NRPC;
“Amtrak”) is incorporated under the District of Columbia
Business Corporation Act (D.C. Code § 29-301 et seq.) in
accordance with the provisions of the Rail Passenger
Service Act of 1970 (Public Law 91-518). Amtrak is
currently governed by a seven-member Reform Board
established under the Amtrak Reform and Accountability
Act of 1997 (P.L. 105-134; 49 U.S.C. § 24302).
Amtrak was created by Congress in 1970 to take over the
rail passenger services previously required to be operated
by private freight railroad companies in the United States.
Those companies reported they had operated their rail
passenger services without profit for a decade or more.
More than half of the rail passenger routes operated by the
freight railroad companies were eliminated when Amtrak
began service on May 1, 1971. The company is operated
and managed as a for-profit corporation providing intercity     Lake Shore Limited | Bannerman’s Castle, Hudson River, NY
rail passenger transportation as its principal business. The
United States Government through the U.S. Department of         Northeast Corridor (NEC; including Washington, DC-New
Transportation (DOT) owns all 109.4 million shares of           York City-Boston, Philadelphia-Harrisburg, and New
issued and outstanding preferred stock. An additional 9.4       Haven, CT-Springfield, MA) and 97 miles in Michigan.
million shares of common stock are held by the successors       Amtrak owns 105 station facilities, and is also responsible
of four railroads whose intercity rail passenger services       for the upkeep and maintenance of an additional 181 station
were assumed by Amtrak in 1971.                                 facilities and 411 platforms. Amtrak also owns 17 tunnels
During Fiscal Year (FY) 2007 Amtrak carried about 26            and 1,186 bridges. It owns most of the maintenance and
million passengers on up to 315 daily intercity passenger       repair facilities for its fleet of about 2,600 cars and locomo-
trains over 21,000 route miles serving 513 communities in       tives. Outside the NEC, Amtrak contracts with freight
forty-six states, the District of Columbia, and three           railroads for the right to operate over their tracks. On their
Canadian provinces. If Amtrak were an airline, it would         property, the host freight railroads are responsible for the
rank as the nation’s eighth largest domestic carrier in terms   condition of their tracks and for the coordination of all rail-
of passengers carried and employment, and eleventh in           road traffic.
terms of operating revenue ($2.1 billion). In terms of
market-share, Amtrak serves 56 percent of the combined
airline-intercity rail passenger market between Washington,
                                                                OIG PROFILE
D.C., and New York City. In addition, more than 800,000         Amtrak’s Office of the Inspector General (OIG) was estab-
people commute every weekday on Amtrak infrastructure           lished as a statutory entity in April 1989, in accordance with
or on Amtrak-operated commuter trains around the                the 1988 amendments (P.L. 100-504) to the Inspector
country under contracts with state and regional commuter        General Act of 1978 (P.L. 95-452; 5 U.S.C. APP.3 Inspector
authorities.                                                    General Act of 1978). The OIG is an independent and
                                                                objective entity within Amtrak whose mission is to detect
Amtrak currently employs about 18,600 persons, of whom          fraud, waste, and misconduct involving Amtrak’s programs
about 16,000 are agreement-covered employees. These             and personnel, and to promote economy and efficiency in
employees work in on-board services, maintenance of way,        Amtrak operations. The OIG investigates allegations of
police, station and reservations services, and other support    violations of criminal and civil law, regulations, and ethical
areas.                                                          standards arising from the conduct of Amtrak employees in
Of its route system, Amtrak owns the right-of-way of more       performing their work. The OIG also audits and evaluates
than 529 route miles (totaling 2,162 track miles) in the

4   Amtrak Profile
Amtrak operations and assists management in promoting            Amtrak’s cash and credit card purchases for transportation
integrity, economy, efficiency, and effectiveness.               and food services on board Amtrak trains.
To accomplish these objectives, the OIG establishes policy       The Office of Inspections and Evaluations is a hybrid unit
for audits and investigations relating to all Amtrak             whose staff have specialized skills in engineering, safety,
programs and operations, and conducts, supervises and            labor/employee relations, mechanical maintenance opera-
coordinates these audits and investigations. Further, the        tions, strategic planning, and finance. This group conducts
OIG reviews existing and proposed statutes, regulations          targeted inspections of Amtrak programs, providing assis-
and policies to evaluate their effect on economy and effi-       tance to managers in their efforts to determine the
ciency in the agency and on the prevention of fraud and          feasibility of new initiatives and the effectiveness of existing
abuse and recommends changes as appropriate.                     operating methodologies. The evaluative process they
                                                                 utilize, whether requested or mandated, consists of inde-
The OIG consists of the following offices with specific          pendent studies and analytical reviews that often serve as
responsibilities:                                                the cornerstone for strategies to improve program cost effi-
The Office of Audits is responsible for conducting indepen-      ciency and effectiveness, management, and the overall
dent reviews of Amtrak’s internal controls; overseeing and       quality of service delivery throughout Amtrak.
assisting audits of Amtrak’s financial statements; reviewing
                                                                 The Office of Counter-Terrorism and Intelligence is
information technology programs and information security;        responsible for facilitating, and overseeing projects and
providing accounting counsel to, and oversight of, Finance       tasks pertaining to rail security, counter-terrorism and intel-
Department operations; reviewing certain procurements            ligence related to the country’s war on terrorism. This
and material acquisitions for appropriateness of cost,           group is involved in working with external agencies to
pricing and compliance with applicable grant and/or              provide focus on the importance of rail security and the
contract terms and conditions; and, monitoring compliance        need for an integrated approach for addressing the many
with laws and regulations.                                       challenges in securing an open-architecture rail passenger
The Office of Investigations is responsible for investigating    system.
various types of fraud and abuse particularly allegations of     There are eight OIG offices located in Washington, DC
financial wrongdoings, kickbacks, construction irregularities,   (Headquarters), Baltimore, Wilmington, Philadelphia, New
bribery, and false claims; performing reviews of Amtrak’s        York, Boston, Chicago, and Los Angeles.
safety and security programs; recommending to the company
better internal controls to prevent fraud and abuse; and,
reporting violations of law to the Attorney General and pros-
ecutors. It is also charged with reviewing and safeguarding




                                                                                                              Amtrak Profile   5
Office of Audits
SIGNIFICANT AUDITS                                             posted and communicated, and the unbilled fuel charges
                                                               will be rebilled to the appropriate railroads.
INTERNAL OPERATIONS REVIEW                                     Review of Amtrak’s FY 2006 Capital Project Budgeting,
Review of GSA Fleet Leased Vehicle Utilization                 Submissions, and Approval Processes
Reporting processes could be improved                          Inadequate policy compliance in key areas of capital
Audit Report Number 210-2006 – Issued 04/19/07                 expenditure processes
                                                               Audit Report Number 106-2005 – Issued 06/22/07
The OIG conducted an audit of Amtrak’s leased vehicle
program to evaluate Amtrak’s vehicle utilization, and to       Amtrak’s external auditors previously reported a material
determine compliance with corporate automotive policies        weakness in Amtrak’s capital expenditure processes in
and procedures related to vehicles leased from the General     connection with their financial statements audit.
Services Administration (GSA) Fleet. For the period            Subsequently, Amtrak management developed a corrective
reviewed, January 2005-March 2006, Amtrak leased a total       action plan to address control deficiencies. The objective of
of 1,451 vehicles from GSA Fleet at a total cost of            this audit was to review FY 2006 capital project budgeting,
$11,725,781. The OIG review of billing statements found        submissions, and approval processes to determine if
many GSA Fleet leased vehicles had incorrectly reported        Amtrak has developed and successfully implemented new
mileage and that Daily Vehicle Logs were not being prop-       policies and procedures to remedy control weaknesses.
erly maintained.      Based on the review, the OIG             The OIG concluded that compliance to policies designed in
recommended and management agreed that the Operations          response to the material weakness finding was inadequate
Department improve the recording of odometer readings to       in key areas of the capital processes four years after imple-
ensure accurate mileage reporting for billing purposes, and    mentation. The main findings of the report are summarized
maintain accurate Daily Vehicle Logs in accordance with        below:
existing policy. In addition, the Procurement Department
will take appropriate action to improve their reporting of     ■   Capital budget submissions did not consistently include a
mileage exceptions to the Operations Department.                   performance measurement strategy that indicates how
                                                                   the end result of the project can be measured to deter-
Review of Locomotive Fuel Charges                                  mine if the investment met its intended purpose. The
Processed Through eTrax                                            lack of project performance measurements has
$105,000 in duplicate or erroneous fuel charges                    contributed to Amtrak’s inability to perform post-
Audit Report Number 203-2005 – Issued 05/8/07                      completion reviews.
Amtrak uses the Electronic Transaction Express (eTrax)         ■   More than 90 percent of the $742 million in capital
software system to document the receipt, approval and              spending approved in FY 2006 was not based on any
payment of locomotive fuel transactions. An audit of loco-         formal operational or financial criteria other than the
motive fuel purchases processed through eTrax was                  assumption that all such projects were a high priority.
performed by the OIG to determine the level of compliance
with Amtrak’s policies and procedures. The audit disclosed     ■   Project justification, impacts of deferral, and alternatives
varying degrees of noncompliance with locomotive fuel              were not adequately presented for a significant portion
deliveries, approvals and the payment process resulting in         of the $552 million sampled.
over $105,000 in duplicate or erroneous payments to fuel
                                                               ■   Capital budget submissions were not reviewed for
vendors in the first half of FY 2006.
                                                                   compliance with generally accepted accounting princi-
In addition, under agreements with railroads where Amtrak          ples (GAAP), a common set of accounting principles,
rents locomotives from those railroads, the rental rate paid       standards and procedures that the U.S. government and
by Amtrak includes locomotive fuel. During the course of           private companies use to compile their financial state-
the OIG review, the OIG identified 26 instances in our             ments. The Federal Accounting Standards Advisory
sample period where Amtrak paid local fuel vendor charges          Board (FASAB) promulgates the generally accepted
for the locomotives and did not seek reimbursement from            accounting principles for federal reporting entities,
the railroad. Management agreed with the OIG findings              including Amtrak (as defined by FASAB Concepts
and recommendation that an approved fuel policy be                 Statement 2, Entity and Display, June 5, 1995).


6   Office of Audits
                                                               Review of Use of NRPC Form 75 Emergency Exchange
                                                               Vouchers at Chicago Union Station
                                                               Procedures and guidelines not fully complied with
                                                               Audit Report Number 404-2007 – Issued 09/28/07
                                                               The OIG performed an audit of NRPC Form 75 Emergency
                                                               Exchange Vouchers (EEVs) issued at Chicago Union
                                                               Station (CUS) for the months of March, April, and May
                                                               2007. The EEV is designed to provide an accounting
                                                               methodology for expenditures to accommodate and assist
                                                               passengers who have been inconvenienced. In instances
                                                               where it is necessary to take cash from station funds for
                                                               addressing the needs of the inconvenienced passenger, an
                                                               approved EEV is required. The objectives of this audit
                                                               were to determine whether EEVs were processed in accor-
                                                               dance with established company procedures and whether
                                                               EEV expenditures were appropriate and properly
Empire Builder | Glacier National Park, MT
                                                               supported with valid receipts or other documentation.
The OIG recommended that the Finance Department along          The OIG review disclosed that, generally, adequate
with user departments comply with existing policies and        controls exist for EEV processing at CUS. However, the
develop financial and operational metrics to ensure that       OIG found that EEV procedures and guidelines were not
capital budget submissions are aligned with corporate goals.   always followed, a total of 336 EEVs could not be
The Finance Department responded with a plan to address        accounted for, and the mini-audit dated June 14, 2007, was
the OIG’s recommendations and revised business process         not complete. Management agreed with the OIG findings.
policies and procedures were issued in February 2007.          The OIG recommended communication and a reemphasis
Future reviews of the capital budget processes are planned     of the importance of following EEV guidelines, and that
for the next fiscal year.                                      counseling or disciplinary action be taken with employees
                                                               routinely not in compliance with the guidelines. The OIG
Limited Scope Review of Milwaukee Station Ticket Office        recommended and management agreed to account for the
Accounting Procedures and Operations                           336 EEVs, and to issue EEVs sequentially and reconcile
Assets were adequately safeguarded and records were            them monthly. The OIG recommended and management
organized                                                      agreed to complete all mini-audits in compliance with
Audit Report Number 403-2007 – Issued 09/17/07                 procedures.
The OIG performed a limited scope review of the
Milwaukee, Wisconsin, station ticket office to; determine      INFORMATION TECHNOLOGY
compliance with station accounting procedures, verify          Review of Payment Card Industry (PCI) Data Security
assigned working funds, ticket stock and other assets, eval-   Standards
uate safeguards over these assets, and appraise the            PCI Data Security Standards not fully complied with
efficiency of station operations. The OIG found that           Interim Report for Project Number 103-2005
employees generally are in compliance with daily station
accounting and reporting procedures. We found assets           In response to a request from Amtrak’s Chief Information
were adequately safeguarded and records were organized.        Officer (CIO), the OIG completed a desktop review of
The OIG identified several minor deviations from Amtrak’s      Amtrak’s compliance with the Payment Card Industry
operational procedures, including: the Over and Short          (PCI) Data Security Standards (DSS) and issued an interim
Ledger was not being used; station personnel issued            report as part of the Credit Card and Cash Management
Emergency Exchange Vouchers without approval signa-            Systems Audit (Project Number 103-2005). Amtrak is
tures; and several employees had substandard attendance as     currently a Level 2 merchant for compliance with the PCI
defined by Amtrak’s National Attendance Policy.                standards, but it will most likely become a higher volume
Management agreed with and promptly implemented all            Level 1 merchant in the near future when its credit card
OIG recommendations.
                                                                                                       Office of Audits   7
                                                               PROCUREMENT
    AUDIT STATISTICS                                           Review of Low Foam Cleaner Contract B 098 13443
                                                               Inconsistent costing methodologies, unallowable costs, and
    Status of Audit Projects
                                                               excessive profit margin
    Audits in progress at 4/1/07                       41      Audit Report Number 205-2007 – Issued 04/29/07
    Audit projects postponed or cancelled              (2)     The OIG completed a limited review of a contract with the
    Audit projects started                             16      Chemical Corporation of America, Inc. (Chemcoa), of
    Audit reports issued                              (12)     Chester, New York, a supplier of industrial cleaning
                                                               compounds for the railroad industry, for the purchase of
    Audit projects in progress 9/30/07                 43
                                                               low foam cleaner for air brake cleaning machinery in order
    Audit Findings                                             to verify the accuracy and acceptability of the cost and
                                                               pricing data shown on the contractor’s estimated cost
    Questioned costs                             $207,435      breakdown. This was a non-competitive, blanket two-year
    Unsupported costs                                  $0      firm fixed-price agreement, and it is estimated that approxi-
    Funds to be put to better use                      $0      mately $250,000 of the $300,000 agreement would be used
                                                               to purchase the low foam cleaner. As a result of the post-
    Total                                        $207,435
                                                               award audit, the OIG questioned 17 percent of the $7.61 per
                                                               gallon sales price because of inconsistent costing method-
                                                               ologies, costs unallowable under the Federal Acquisition
                                                               Regulation System (FAR 31.404-4), and incorrect account
transactions exceed 6 million per year. Once Amtrak is
                                                               coding. Chemcoa also failed to provide supporting docu-
determined to be a Level 1 merchant, an onsite assessment
                                                               mentation covering 64 percent of various cost components
by an independent evaluator must be completed every year.
                                                               and the proposal included a profit margin of 49 percent,
PCI security standards consist of twelve basic requirements
                                                               which the OIG considers excessive. Negotiations are
that must be complied with to avoid fines and penalties. If
                                                               continuing with Chemcoa, and the OIG recommends that
non-compliant and there is a security breach, it can cost
                                                               Amtrak management utilize FAR guidelines in negotiating
Amtrak between $90 and $305 per lost record.
                                                               a reasonable profit margin.
The objectives and scope of the OIG review were to eval-
                                                               Limited Scope Review of the Proposed Costs to Manufacture
uate the Level 2 self-assessment questionnaire completed
                                                               and Install Escalators at New York Penn Station
by management, and to identify gaps to achieve full Level 1
                                                               Unsupported labor burden contingency cost identified
compliance so that a security plan can be developed. The
                                                               Audit Report Number 222-2006 – Issued 07/27/07
OIG found that Amtrak currently does not fully comply
with the PCI DSS requirements and an aggressive action         The OIG completed a limited scope review of the proposed
plan would be required to achieve Level 1 compliance. The      cost of $418,000 to manufacture and install the initial esca-
scope of the remediation effort could be reduced if Amtrak     lator at New York Penn Station. This was part of a
can eliminate or encrypt the credit card information; and      purchase order for two escalators totaling $878,000. The
segment its network to isolate applications that process and   contractor, ThyssenKrupp Elevator Corporation (a wholly-
store such data. The OIG found that the ownership, roles       owned subsidiary of ThyssenKrupp Elevator AG of
and responsibilities were not clearly defined to achieve PCI   Dusseldorf, Germany), agreed to an actual cost audit on the
compliance. Also, many policies, procedures and standards      first escalator to determine the reasonable cost of future
required by PCI standards either did not exist or were not     work at New York Penn Station, which needs 14 escalators
sufficiently enforced. As a result of our review, Amtrak       replaced. The accuracy and acceptability of the proposed
management has launched an aggressive effort to develop a      costs and pricing data was reasonable, however, the
comprehensive security plan and strategy to achieve full       proposal included an unsupported labor burden contin-
PCI compliance in the near future.                             gency cost that is generally unallowable under the Federal
                                                               Acquisition Regulation System (FAR 31.205-7). As a result
                                                               of the review, the OIG recommended the labor burden
                                                               contingency cost be disallowed unless it can be supported
                                                               by the contractor’s actual cost records.

8      Office of Audits
Follow-Up Review on Non-Traction Utility Management
Improved oversight of non-traction utilities has saved
                                                                  UNRESOLVED AUDIT ISSUES
over $3 million                                                   Appendices 1 and 2 show the status of management deci-
Audit Report Number 302-2007 – Issued 08/3/07                     sions on audit recommendations and dollar values of
                                                                  questioned costs, unsupported cost, and funds to be put to
In September 2004 the OIG issued Audit Report Number              better use.
302-2004 which assessed the adequacy of controls used to
manage non-traction utility costs in terms of assuring that       Section 5(a)(10) of the Inspector General Act of 1978 (P.L.
Amtrak is receiving the best prices possible and reducing         95-452; 5 U.S.C. APPENDIX Inspector General Act of
energy usage. The audit concluded that adequate controls          1978), requires “a summary of each audit report issued
were not in place to provide reasonable assurance that            before the commencement of the reporting period for
Amtrak was efficiently procuring and managing non-trac-           which no management decision has been made by the end
tion utilities, which cost over $30,000,000 annually. The         of the reporting period. . .” Such reports are shown in
OIG recommended that Amtrak management develop and                Appendices 1 and 2. In addition, 5 U.S.C. APP. ß 5(a)(11)
implement a comprehensive master plan for procuring and           requires “a description and explanation of the reasons for
controlling non-traction utility expenses.                        any significant revised management decision made during
                                                                  the reporting period.” There were none during this
This year the OIG completed a follow-up review to deter-          reporting period. Finally, 5 U.S.C. APP. ß 5(a)(12) requires
mine whether internal controls are now in place to provide        “information concerning any significant management deci-
reasonable assurance that non-traction utilities are being        sion with which the Inspector General is in disagreement.”
properly managed. The OIG found that management is                No such decisions were made during this reporting period.
placing greater emphasis on monitoring and controlling non-
traction utility costs.     A new organization (Utility
Management) was established in January 2006 to provide            MANAGEMENT RESPONSES OVER
formal and defined oversight of non-traction utilities. Utility
Management has undertaken several initiatives to address
                                                                  180 DAYS OLD FOR WHICH
the internal control weaknesses reported in the previous          CORRECTIVE ACTION HAS NOT BEEN
audit, and has already saved over $3,000,000. As a result, the
OIG concluded that current controls, and those that are
                                                                  COMPLETED
being implemented, provide reasonable assurance that              The OIG continues to monitor and follow up with manage-
Amtrak is adequately managing non-traction utility costs.         ment on corrective action measures. The following items
                                                                  were reported in previous semiannual reports and addi-
                                                                  tional information is being reported.
RAILROAD AUDITS
Limited Scope Review of CSX Corporation, Inc. (CSX)-              CSX Transportation, Inc. (CSXT) – Audit of Non-On-
New York High Speed Line Agreement                                Time Performance Items
Recovery of $237,265 in questioned costs                          $478,000 in erroneous billings identified
Audit Report Number 212-2006 – Issued 06/7/07                     Audit Report Number 01-105 – Response 08/20/2001

The OIG evaluated the accuracy and reasonableness of              The Chicago OIG office has met and discussed proposed
billings pertaining to the use of Track 2 of the NEC by CSX       audit adjustments, supporting documentation, correspon-
Corporation, Inc. (CSX), freight trains. The OIG identified       dence, and audit work papers with representatives of CSX
$64,037 that is owed to Amtrak as a result of CSX freight         Transportation, Inc. (CSXT). CSXT is a wholly-owned
trains using portions of dedicated Amtrak tracks without          subsidiary of CSX Corporation, Inc., of Jacksonville,
notifying Amtrak or paying for such usage. CSX officials          Florida. CSXT operates the largest freight railroad in the
agreed with the finding. In addition, the OIG also resolved       eastern United States with a 21,000-mile rail network in 23
all prior audit findings related to such freight train usage,     states, the District of Columbia, and two Canadian
resulting in a refund to Amtrak of $237,265.                      provinces. A tentative agreement has been reached to
                                                                  settle all issues identified in Audit Report Number 01-105.
                                                                  The final settlement letter has been reviewed and approved
                                                                  by both entities, and CSXT will credit or reimburse Amtrak
                                                                  a total of $478,000 during the next reporting period.

                                                                                                           Office of Audits   9
Review of Union Pacific Corporation (UP) Billing                 Review of NEC Work Trains
Processes                                                        Audit Report Number 212-2003 – Response 10/28/2003
$144,659 in excess billings identified
Audit Report Number 407-2004 – Issued 03/7/2007                  Our review disclosed that Amtrak could establish a more
                                                                 efficient system to fuel Mid-Atlantic work trains by fueling
Effective January 1, 2000, Amtrak entered into an agree-         work trains at a closed fueling location. The OIG has
ment with the Union Pacific Corporation (UP) of Omaha,           requested additional information to determine if manage-
Nebraska (the largest freight railroad in the United States      ment has taken appropriate action.
with a 32,000-mile rail network in 23 western states), which
                                                                 Mass Transit Products, Inc. - Termination for Default for
consolidated four previous contracts with the Denver and
                                                                 Superliner I Overhaul
Rio Grande Western Railroad, the Southern Pacific
                                                                 Questioned costs of $63,184
Railroad, the Southern Pacific Central States Line, and the
                                                                 Audit Report Number 219-2005 – Response 01/25/2006
Union Pacific Railroad for intercity rail passenger opera-
tions on tracks and properties now wholly-owned by UP.           The Procurement and Materials Management Department
Under the agreement provisions, UP bills Amtrak each             is involved in ongoing settlement negotiations with Mass
month for specific services and facilities for intercity rail    Transit Products, Inc., of Montgomery Village, Maryland,
passenger operations. The audit purpose was to determine         and its’ suppliers. The OIG continues to monitor actions
the accuracy, reasonableness, and validity of the charges UP     taken.
billed Amtrak for selected items and to develop an audit
adjustment claim if appropriate.                                 Physical Inventory of Acela High-Speed Rail Parts
                                                                 Questioned costs of $222,186
The scope of our audit encompassed the period from               Response 02/23/2007
January 1, 2002, through December 31, 2003, and consisted
of analyzing UP’s monthly billing costs, records, payments,      The OIG assisted in counting the Acela Parts inventory that
technical opinions, vendor invoices, Amtrak delay reports,       was owned by the Bombardier/Alstom OEM consortium.
internal/external letters and memoranda, historical docu-        The OIG also performed and are currently assisting in a
mentation of similar railroad billings, where available, and     pricing review. The OIG originally identified $222,186 in
other information, as deemed necessary.                          questioned costs. However, there are still under-priced
                                                                 items and items that have not been entered into Amtrak’s
We did not audit 100 percent of the billing costs due to         Accounting, Material and Purchasing System (AAMPS).
resource limitations, dollar materiality, and other              The OIG will continue to monitor.
constraints. We audited 14 of 23 items accounting for over
98 percent of the total billing. We found erroneous billings     Reviews of Southern Pacific Central States Line
in 10 of the 14 items selected for audit, $230,282 over-billed   Questioned costs not yet resolved
and $85,623 under-billed for a net total of $144,659 due         Audit Report Number: 01-506 – Response 09/04/2001
Amtrak. UP representatives agreed with our findings. We          Audit Report Number: 01-507 – Response 09/04/2001
recommended that management initiate a final settlement          Audit Report Number: 01-508 – Response 10/12/2001
letter and that monies due Amtrak be collected.                  Audit Report Number: 01-509 – Response 10/12/2001
Management verbally agreed, but has not provided a               The audit reports listed above have been reported on in
written response to this audit.                                  previous Semi-Annual Reports. As of this reporting period,
                                                                 there are no significant developments to report. The OIG
                                                                 will continue to monitor.




10   Office of Audits
                                                              Office of Investigations
 CASE STATUS OF INVESTIGATIONS                                          HOTLINE STATISTICS
 4/1/07 – 9/30/07                                                       4/1/07 – 9/30/07                                       Total
 Total Open Cases as of 3/31/07                                 289
                                                                        Hotline Complaints Received                                 9
 Closed Cases                                                   (71)
 Opened Cases                                                    58     Sources of Hotline Complaints
 Total Ongoing Cases as of 9/30/07                              276
                                                                        Amtrak Employee                                             1
                                                                        Anonymous Source                                            3
                                                                        Private Citizen                                             3
CASE HANDLING                                                           Referred by Other Amtrak Department                         1
                                                                        Referred by Federal/State/Local
The OIG receives allegations from many sources, including
                                                                         Law Enforcement Agency                                     1
employees, confidential informants, Congressional sources,
federal agencies and third parties. Presently, we are                   Classification of Complaints
handling 276 investigations; in the last six months, we
opened 58 cases and closed 71 cases.                                    Time and Attendance                                         2
                                                                        Waste                                                       1
As set forth in the chart below, entitled “Sources of                   Mismanagement                                               1
Allegations,” employees and anonymous referrals                         False Statements                                            1
accounted for about 67 percent of the allegations during this           False Claims                                                1
reporting period, with employees being the source of 31 of              Theft                                                       1
the 58 allegations, or 53 percent. All allegations are                  Abuse of Position                                           1
reviewed, screened and resources are allocated based upon,              Criminal – Other                                            1
among other things, the seriousness of the allegations and
potential harm to Amtrak or the public.                                 Complaints Referred To:
                                                                        Mechanical Department Management                            4
                                                                        OI Field Offices                                            2
                                                                        Customer Services                                           2
 SOURCES OF ALLEGATIONS                                                 Safety                                                      1

 4/1/07 – 9/30/07
                                          Private Citizen 2            The fraud OIG HOTLINE program has continued to
                                                                       provide employees or third parties an opportunity to report
                                          Referred by Audit 2
                                                                       allegations of fraud, waste, abuse, and other wrongdoing.
                                          Referred by Fed/State/       Employees can access the HOTLINE twenty-four hours a
                                          Local Law Enforcement 2
                                                                       day by calling Amtrak Telephone System (ATS) number
                                          Referred by Other OIG 1
                                                                       728-3065 in Philadelphia and the toll free number (800) 468-
                                          U.S. Congress 1
                                                                       5469 if outside Philadelphia. During working hours from
                                                                       9:00 a.m. to 4:30 p.m. the OIG answers callers on the
                                          Hotline 2
                                                                       HOTLINE system. During other hours or during those
                                          Other 2
                                                                       occasions when staff are away from the office, callers can
                                                                       leave a message on the HOTLINE answering machine. In
                                                                       addition, people can write in confidentially to P.O. Box
    Confidential                     Amtrak Employee
    Informant 5                             31                         76654, Washington, DC 20013. The OIG received nine tele-
               Anonymous                                               phonic HOTLINE complaints during this reporting period,
                 Source 8
                                                                       which is an increase from the previous reporting period.
                      Former                                           The majority of HOTLINE complaints received during this
                 Amtrak Employee 2
                                                                       reporting period were made by anonymous sources and
                                                                       private citizens.
                                                                                                         Office of Investigations   11
SIGNIFICANT INVESTIGATIONS                                             CLASSIFICATION OF CASES
THEFT AND FRAUD                                                        OPENED DURING THIS PERIOD
Theft and fraud is a problem which affects many organiza-              4/1/07 – 9/30/07
tions that handle large amounts of cash. Due to the nature             Type                                                                                 Number
of the passenger rail business, cash transactions on our
                                                                       Fraud . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
trains and in our stations are at risk for employee embezzle-
ment and/or theft of company assets. The OIG spends                    Theft/Embezzlement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
considerable time and effort identifying and addressing                False Claims . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5
these issues, with examples of such investigations listed              False Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
below.
                                                                       False Time & Attendance Issues . . . . . . . . . . . . . . . . . . . . . . 4
■    The OIG conducted an investigation of a Chicago-based             Other Criminal . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
     Lead Service Attendant (LSA), for failing to remit
                                                                       Waste . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
     monies from on-board sales in the amount of $2,612.50.
     The LSA was terminated and subsequently indicted for              Abuse of Position . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
     theft and charged with a Class 3 felony in violation of 720       Mismanagement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
     Illinois Comp. Stat. 5/Art. 16-1 (Theft) and ILCS 5/Art.          Conflict of Interest . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
     16A-2.8 in the Circuit Court of Cook County. The
                                                                       Administrative Inquiries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
     former LSA pled guilty to a charge of theft on May 18,
     2007, and was sentenced to one year of court supervision          Other Non-Criminal . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
     and ordered to pay restitution to Amtrak.                         TOTAL                                                                                          58

■    The OIG investigated an allegation that Amtrak
     employees and their non-Amtrak associates were
     submitting claims, accumulating, and redeeming                      tion with AAMP. As a result of the investigation and the
     frequent flyer mileage on Alaska Airlines utilizing the             OIG’s subsequent Administrative Report to
     Amtrak/Alaska Airlines Mileage Plan (AAMP) travel                   Management, fourteen employees were removed from
     partnership and not remitting the required funds associ-            service after being charged, and terminated after their
     ated with those claims. We began an extensive                       hearing. Effective July 15, 2007, Alaska Airlines discon-
     investigation into fraud by Amtrak employees in connec-             tinued its AAMP travel partnership with Amtrak. They
                                                                         also cancelled and revoked the Frequent Flyer Mileage
                                                                         accounts of those Amtrak employees and non-Amtrak
                                                                         individuals associated with this investigation.
                                                                         In conjunction with the Alaska Airlines case, the OIG
                                                                         conducted a separate investigation into an allegation of
                                                                         misconduct on the part of an Assistant Superintendent
                                                                         and Secretary tasked with preparing and ensuring that six
                                                                         of the employees involved with the abuse were served
                                                                         with charge letters within the proper time limits and prior
                                                                         to the hearing date. As a result of the investigation, we
                                                                         recommended that Amtrak management consider disci-
                                                                         pline for both employees. This recommendation was
                                                                         agreed to by management and resulted in ninety days
                                                                         probation for the Assistant Superintendent and coun-
                                                                         seling for the Secretary.
                                                                   ■     As the result of an OIG investigation, an Engineering
Vermonter | Passing through farmland, VT                                 Clerk was charged with unauthorized or inappropriate
                                                                         use of an Amtrak Procurement Card (P Card). The

12     Office of Investigations
    employee admitted that a P Card was used to purchase at
    least thirty items valued at more than $2,000 for personal.
    The items were subsequently recovered. The employee
    resigned during the administrative hearing.
■   During this reporting period, a Chicago Ticket Agent,
    previously charged with manipulating over fifty
    passenger ticket exchanges for personal gain in the
    amount of $4,449, resigned from Amtrak.
■   As a result an OIG investigation, a federal arrest warrant
    was issued for an individual who frequented an Amtrak
    train station victimizing prospective Amtrak employees.
    The perpetrator promised employment to prospective
    employees, but conditioned that upon them paying him
    for supplies and uniforms. The perpetrator, however,          California Zephyr
    disappeared without providing either jobs or refunds.

                                                                  ■   The OIG found that an Amtrak Reservation Clerk
FORGED MEDICAL DOCUMENTS                                              worked another job while out of work on a MLOA. The
Amtrak Health Services (AHS) requires all Amtrak                      OIG investigation confirmed the allegation and resulted
employees to complete an Amtrak Medical Form Treating                 in the employee being counseled about her leave abuse.
Physician Medical Status Report when on a medical leave
of absence. AHS found fraudulent discrepancies in Medical
                                                                  MISUSE OF COMPANY ASSETS
Status reports submitted by an Amtrak employee. The
OIG’s investigation of an allegation that the employee’s          The OIG conducted several investigations pertaining to the
forms were invalid, found that the employee had committed         misuse of company assets.
fraud. The employee forged the doctor’s signature and             ■   The OIG received an allegation that a Conductor was
other parts of the form before submitting it to AHS in order          providing free rail travel to friends and family members
to extend medical benefits. As a consequence of the OIG’s             to which they were not entitled. The employee
report to management, the employee elected to resign from             confirmed the allegation during the investigation and
the company prior to a scheduled disciplinary hearing.                consequently was dismissed from Amtrak.
                                                                  ■   The OIG found that an employee abused his vehicle use
ABUSE OF MEDICAL LEAVE OF ABSENCE (MLOA)
                                                                      privileges and continued to commute in his assigned
STATUS                                                                Amtrak vehicle, despite management’s decision not to
Various labor agreements provide that employees who are               renew his take-home privileges. The employee admitted
absent from work because of personal sickness or physical             to knowingly commuting in the Amtrak vehicle for
disability will forfeit their seniority if they engage in other       several months without authorization. In response to the
employment, unless special arrangements have been made                OIG findings, management suspended the employee for
between the designated Corporate Officer and the Division             thirty days without pay and ordered him to reimburse
Chairman. In addition, Amtrak’s Standards of Excellence               Amtrak for the commuting expenses.
contains a Trust and Honesty clause. Despite these require-
ments, allegations of violations regarding MLOA are               ■   The OIG determined that an employee engaged in
reported to and investigated by the OIG, such as those illus-         billing improprieties in connection with the purchase of
trated below.                                                         equipment. The OIG investigation determined an
                                                                      Amtrak management employee initially requested funds
■   While out of work on a MLOA, an Amtrak employee                   to purchase shelving material for an Amtrak store house,
    was working for New Jersey Transit. As a result of an             making use of funds that had been earmarked for the
    OIG investigation and report to management, the                   purchase of emergency equipment by Amtrak. Upon
    employee was terminated from her position at Amtrak               receipt of approval to spend the funds for shelving, the
    for abusing her MLOA status.

                                                                                                    Office of Investigations   13
     employee then stated that a sufficient amount of shelving         for salvaged items. The COO agreed with the report and
     was already in place. The employee then purchased two             implemented the recommendations.
     laptop computers and two iPods to be used by herself
     and a direct report. The support documentation which          ■   Amtrak’s Private Car Department made two policy
     she submitted with the bill was falsified to make it appear       changes as the result of an OIG investigation and
     the approved shelving was purchased instead of the                management report. The Private Car Department
     laptops and iPods. As a result of the OIG investigation,          implemented a late fee of two percent to be applied to
     the employee was disciplined and reimbursed Amtrak                past-due charges for private car movements and also
     for the cost of the laptops and iPods.                            implemented a policy requiring that any special requests
                                                                       for waiver of fees or charges related to private car move-
■    An OIG investigation revealed that an Amtrak-issued               ments be approved by a member of the Amtrak
     cell phone was used while the employee was off from               Executive Committee.
     work. During the resulting interview, the employee
                                                                   ■   The OIG received an allegation that, during a twelve
     admitted to the OIG that the employee’s relative used
                                                                       month period, there was a significant variance in the
     the cell phone for personal business. The employee was
                                                                       delivery of parts delivered to three of Amtrak’s mechan-
     disciplined and required to reimburse Amtrak for the use
                                                                       ical facilities in Miami, New Orleans, and Sanford. While
     of the cell phone.
                                                                       the investigation was unable to substantiate the allega-
                                                                       tion, the OIG observed that Amtrak had no controls in
EFFICIENCY AND EFFECTIVENESS                                           place to ensure that Amtrak was receiving the parts it
In addition to detecting and deterring fraud, waste, abuse             had ordered.         As a result, the Mechanical and
and misconduct in Amtrak’s programs and operations, OIG                Procurement Departments have instituted procedures
investigations also provide information and recommenda-                which require an enhanced validation and documenta-
tions to management and employees to improve the                       tion of parts received by outside vendors.
company’s efficiency and effectiveness. During this
                                                                   ■   The OIG received information that Amtrak had
reporting period, these investigations have led to recom-
                                                                       purchased computer network servers, related equipment
mendations concerning quality improvement to which
                                                                       and the applicable maintenance contracts for what was
management generally responded positively and imple-
                                                                       specified to be new equipment valued at more than
mented, for the most part, as detailed below.
                                                                       $89,000. Upon installation of this equipment it was
■    The OIG received an allegation that a taxi service was            determined that five of the servers were used and only
     over-billing Amtrak at the Albany Train Station.                  two were new as specified. The OIG investigation
     Although the subsequent investigation did not substan-            confirmed that the servers did not meet specifications;
     tiate over-billing of Amtrak, the OIG did find failure of         moreover, the OIG determined that the Procurement
     internal controls in the manner in which Amtrak recon-            Department did not have procedures in place for the
     ciled corporate billing records. As a result, the OIG             maintenance of its files and for sufficiently monitoring
     recommended some controls to Amtrak’s Albany Train                equipment which it ordered. The OIG made recommen-
     Station staff which were implemented.                             dation for procedural improvements of which many have
                                                                       been implemented by the Procurement Department
■    During this reporting period the OIG conducted an inves-
     tigation, based on an allegation that a Division Engineer’s
     Office ordered about $20,000 worth of usable roadway          CONFLICT OF INTEREST
     exhaust equipment parts, which were eventually scrapped       Amtrak policy states, in relevant part, “Amtrak requires all
     during a clean up, even though they had not been utilized.    employees to observe the highest standards of business
     The allegation was substantiated and an Administrative        ethics. They must conduct the business and operation of
     Referral was distributed to the Chief Operating Officer       Amtrak and their affairs in a manner that complies with
     (COO). The report recommended that Amtrak manage-             applicable law and high moral and ethical standards and
     ment inform employees of the company’s applicable             avoids any possible conflict of interest or appearance of a
     policies regarding clean up, control and disposition of       conflict of interest. They shall not realize personal gain, or
     inventory and scrap material, including documentation         help others to gain, from their positions with Amtrak or
                                                                   from knowledge or information not released to the public.”


14     Office of Investigations
                                                                      complimentary trips on Acela Express, Regional Service,
                                                                      Auto Train, and long distance service, including first
                                                                      class accommodations. The OIG also learned during the
                                                                      inquiry that the same Washington-based management
                                                                      employees provided complimentary hotel rooms cour-
                                                                      tesy of Amtrak to individuals having no legitimate claim
                                                                      to said hotel rooms. During the OIG investigation a Vice
                                                                      President and a Senior Director resigned their positions
                                                                      with the company. As a result of the OIG’s investigation
                                                                      and report, Amtrak is implementing new guidelines for
                                                                      complimentary travel, as well as creating policies and
                                                                      procedures for auditing departments and programs that
                                                                      participate in providing complimentary travel for legiti-
                                                                      mate business related travel.
Regional | Northeast Corridor                                     Subsequently, the OIG expanded its inquiry to include
                                                                  Amtrak’s Marketing Department, and found deficiencies
During this reporting period, the OIG investigated the            similar to the deficiencies discovered in the initial probe.
following allegations pertaining to transgressions of this        As a result of both inquiries, management has realigned the
policy.                                                           Diversity Department, and implemented new company
                                                                  policies which result in administrative structure and
■   The OIG conducted a Conflict of Interest investigation
                                                                  accountability to departmental operations.
    involving the relationship between a former Vice
    President and several vendors seeking to do business          The OIG received an allegation and performed an investi-
    with Amtrak. The Vice President’s initial Certificate of      gation regarding a manager who used her position to
    Compliance filing did not list any entity in which he had a   inappropriately access a fellow employee’s personal infor-
    financial interest. We learned that the Vice President        mation to establish a cell phone account and violate the
    wanted to use a firm in which he was a member of the          employee’s privacy. Once that cell phone account was
    Board of Advisors and had a financial interest. Due to        established, the employee was able to forward the fellow
    being alerted to a possible conflict, the Vice President      employee’s daily call detail data to their email for review of
    sought a ruling from Amtrak’s Law Department, who             the fellow employee’s personal phone activity. As a result
    determined that the use of the firm would be a conflict       of the investigation, the employee admitted her role and
    and disallowed the contract. The Vice President then          was ultimately terminated from her management position.
    resubmitted a Certificate of Compliance that listed three
    firms in which he had a financial interest. It was later
                                                                  TIME AND ATTENDANCE REVIEWS
    learned that the firm, despite the Law Department’s
    admonition regarding the Vice President advocating            The OIG receives and investigates allegations regarding
    doing business with these entities as long as he had a        time and attendance issues in an effort to assist in
    financial interest, was being listed as a subcontractor on    addressing and preventing time and attendance fraud. The
    two contract proposal submissions. Amtrak terminated          OIG refers most time and attendance issues to management
    all contracts that the Vice President initiated during his    for their analysis and action, with OIG monitoring manage-
    term of employment.                                           ment’s actions. The following are illustrative of these types
                                                                  of investigations which we conducted during this reporting
■   In a previously reported investigation and referral, the      period.
    OIG found that certain Washington-based management
    employees provided free travel aboard Amtrak trains to        ■   The OIG received information that a Secretary routinely
    individuals having no legitimate claim or right to compli-        reported to work late and left work early every day for a
    mentary travel. OIG determined that Amtrak travel                 period of approximately six months. The Secretary
    tickets, valued in excess of $180,000, were provided to           would complete a “Time Adjustment Form” with an
    persons on a complimentary basis under the guise of               explanation written on the form that she was conducting
    legitimate Amtrak programs. Travel included numerous              Amtrak business at the United States Post Office. The


                                                                                                     Office of Investigations   15
     OIG substantiated that the Secretary had not been                 tion. As a result, a criminal complaint was filed in the
     conducting company business but covering her tardiness            United States District Court, District of Maryland, for
     by claiming that she conducted company business. The              criminal violation of 18 U.S.C. ß 641 (Embezzlement and
     OIG further substantiated that Managers were made                 Theft of Public Money). The former employee pled
     aware of the Secretary’s tardy arrivals and early depar-          guilty to the charges and was sentenced to six months in
     tures from work by her co-workers, yet failed to take any         prison, probation, and full restitution.
     corrective action and signed the Time Adjustment
     Forms. As a result of this investigation, the Secretary       EMBEZZLEMENT FROM PREVIOUS EMPLOYER
     was charged and terminated for theft, the Assistant
     Superintendent was placed on probation for six months,        The OIG assisted the United States Attorney’s Office
     and two Station Managers were reprimanded and letters         regarding a manager working for Amtrak who was under
     placed in their personnel files.                              investigation for embezzling more than a million dollars
                                                                   from his former employer. Our investigation confirmed
■    The OIG received an allegation that Amtrak station            that a search warrant had been duly executed by federal
     cleaners, working a night shift, were committing payroll      authorities at the employee’s residence. The employee was
     fraud and consuming alcoholic beverages on company            terminated from his position at Amtrak and the OIG seized
     time. The subsequent surveillance by the OIG substanti-       his computer for further analysis. The former employee
     ated the allegation. As a result of the completed             subsequently pled guilty and agreed to pay restitution to his
     investigation one employee was terminated and the             former employer.
     Assistant Foreman received a thirty-day suspension.

                                                                   REVENUE PROTECTION UNIT
JOINT INVESTIGATIONS                                               The Revenue Protection Unit (RPU) initiates and provides
                                                                   support in detecting and deterring theft, fraud, waste, abuse
FUEL CREDIT CARD EMBEZZLEMENT                                      and misconduct in Amtrak’s programs and operations that
Employees in possession of fuel credit cards are responsible       impact train service and ticket office employees. The RPU
for ensuring each credit card is safeguarded against theft         provides critical guidance and support in the strengthening
and utilized properly. Although the company has estab-             of management accountability and responsibilities, as well
lished corporate procedures for the management and                 as internal controls.
control of fuel credit cards, the abuse of fuel credit cards
continues to be reported. The OIG substantiated certain of         RPU-INITIATED TRAIN SERVICE REVIEWS
these allegations as indicated below.
                                                                   ■   Amtrak provides food and beverage service on board
■    The OIG received an allegation from the General                   trains to millions of passengers each year. The revenue
     Services Administration (GSA) Office of Inspector                 generated by these sales as well as the food stock and
     General regarding suspicious credit card activity                 supplies used to supplement these sales, afford a
     pertaining to GSA leased vehicles at Amtrak. A joint              dishonest employee the means for revenue abuse or
     investigation by Amtrak OIG and GSA OIG revealed                  theft. During this reporting period, the RPU analyzed
     that an Amtrak employee used GSA Voyager Fleet                    the applicable support documents for on board food and
     credit cards to purchase fuel for his personal vehicle as         beverage sales on 197 trains by 67 Lead Service
     well as friends’ vehicles. The employee made more than            Attendants (LSAs). The completed review resulted in
     three hundred fraudulent fuel purchases totaling                  forty administrative referrals consisting of various find-
     $16,976.37 using nine separate Voyager Fleet credit               ings covering theft and fraud to failure to follow
     cards. By his own admission when utilizing the cards to           procedures. At the completion of this reporting period,
     fuel friends’ vehicles he charged them fifty percent of the       discipline had been assessed, based on the RPU referrals,
     retail cost of the fuel purchases. The employee resigned          for thirty-three LSAs consisting of counseling, remedial
     from Amtrak in May 2007. The OIG subsequently                     training, suspensions, and terminations.
     referred this matter to the United States Attorney’s
     Office for the District of Maryland for criminal prosecu-



16     Office of Investigations
■   A referral response was received during this reporting
    period in conjunction with a previously conducted RPU        PROSECUTIVE REFERRALS
    investigation and subsequent Administrative Referral         4/1/07 – 9/30/07
    regarding management accountability and responsibili-
                                                                 Referrals              U.S. Attorney Local/State                 Total
    ties for a Pacific Division crew base. The response
    outlined a plan to better address several of the findings    Criminal Cases
    and acknowledged management failures in some areas,
    as well as commitment to hold management accountable         Indictments                   1                15                16
    for future failures.                                         Convictions/Pleas             3                 0                 3
■   The RPU also conducts preliminary reviews of                 Pending*                      4                15                19
    conductor cash fares to identify, analyze and document,      Declinations                  2                 0                 2
    then refer for continued handling, conductor reviews         Resolved                      0                 0                 0
    that indicate possible theft or misappropriation situa-
                                                                 TOTAL                        10                30                40
    tions. During this reporting period, the RPU completed
    and forwarded to the appropriate management                  Civil Cases
    personnel twenty-one conductor referrals. At the close
    of this reporting period, responses for nineteen of these    Suits Filed                   0                 0                 0
    referrals had been received, with three of those resulting   Settled                       0                 0                 0
    in discipline. The other sixteen indicated possible          Pending                       0                 0                 0
    discrepancies or inconsistencies in remittance proce-
    dures, which have been reported to Revenue Operations        TOTAL                                                             0
    for further handling and correction.                         Total Civil and Criminal                                         40
                                                                 *Some of these will be reflected under pending civil cases because these
                                                                 matters are being handled by the United States Attorney’s office in
                                                                 parallel proceedings. In cases where there have been convictions or
                                                                 pleas, we may be awaiting sentencing, restitution, or other resolutions.




                                                                                                          Office of Investigations          17
Office of Inspections and Evaluations
SIGNIFICANT INSPECTIONS &                                      outsourcing part of the maintenance operation to an experi-
                                                               enced maintenance provider.           To assist Amtrak
EVALUATIONS                                                    management in this regard, the OIG engaged a consultant
                                                               who had helped in the negotiations of several large locomo-
AMTRAK MECHANICAL OPERATIONS – OIG                             tive maintenance contracts. With his assistance, Amtrak
CONTINUING TO HELP WITH IMPLEMENTATION OF                      management is in discussions with one of the largest loco-
                                                               motive maintenance providers in North America. In
PREVIOUS RECOMMENDATIONS                                       preparation for possible outsourcing, Amtrak has consoli-
In September 2005, the OIG issued report E-05-04, which        dated its diesel locomotive maintenance operations and
resulted from a year-long system-wide review of Amtrak’s       made significant facility improvements. Even if an agree-
Mechanical Maintenance Operations. In this report, the         ment does not come to fruition, these actions will lead to
OIG recommended that Amtrak adopt a more modern                improved efficiencies and overall reduced maintenance
maintenance philosophy based on Reliability-Centered           costs – potentially as much as was envisioned through
Maintenance (RCM). An RCM-based program requires               outsourcing.
that all maintenance activities be supported by sound tech-
nical and economic justifications. The OIG’s report            Equipment Reliability Improvements
recommended specific actions that Amtrak should take to        The OIG continues to facilitate and support the establish-
transition to RCM and to make the operations more effi-        ment of teams dedicated to conducting Root Cause
cient. For the past two years the OIG has been working         Analyses into recurring equipment failures. The teams that
with the Mechanical Department to help them implement          have been established have made significant contributions
the OIG recommendations.                                       to the improvements in reliability of both the Acela train-
Implementation of Reliability-Centered Maintenance             sets and the High Horsepower (HHP) Locomotives. Acela
                                                               delays due to mechanical failures have decreased by 26
Although day to day administration of this initiative is now   percent over the past 6 months compared to the previous 6
under the Chief Operating Officer (COO), the OIG               months and HHP Locomotive availability continues to run
remains engaged in an oversight role to help facilitate        42 percent higher than in FY 2006.
progress. The OIG has performed additional analysis and
made additional recommendations to help Amtrak over-
come implementation challenges and help insure that
                                                               PROCUREMENT AND MATERIAL SUPPLY CHAIN
benefits are achieved.                                         MANAGEMENT – OIG FACILITATING IMPROVEMENT
                                                               EFFORTS
Mechanical Maintenance Facility Rationalization and
Process Improvement                                            Alstom Parts Contract

Some of the recommendations in our report on Mechanical        The OIG continues its efforts in facilitating improvements
Maintenance Operations addressed rationalizing Amtrak’s        and resolving shortfalls identified in our initial evaluation of
maintenance facilities and streamlining Amtrak’s mainte-       the Acela Parts Contract. As indicated previously, Amtrak
nance processes. These recommendations are in various          entered into a contract with Alstom TLS to supply and
stages of implementation. To assist the COO in coordi-         manage the parts inventory for the Acela trainsets, effective
nating these efforts, the OIG engaged the Thomas Group,        October 1, 2006. This contract has an estimated value of
Inc., of Irving, Texas, to develop a plan to facilitate and    close to $200 million over the five-year term. Based on the
accelerate the implementation of these recommendations.        value of the contract and the importance of the contract to
The COO has endorsed the plan and is engaging the              the success of Amtrak’s premium Acela service, the OIG
Thomas Group to help execute the plan. The OIG will            continues to work with Amtrak’s Mechanical, Procurement
continue to assist and provide oversight to this effort.       and IT departments to ensure that Amtrak puts processes in
                                                               place to adequately measure and monitor the contractor’s
Diesel Locomotive Maintenance Consolidation                    performance. Amtrak has just completed the first year of
                                                               the Acela Parts Contract and during that year many
Another of the recommendations in the OIG report on
                                                               changes, some unforeseen, to the contract have occurred.
Amtrak’s Mechanical Maintenance Operations was for
                                                               While, some progress has been made there is still work to be
Amtrak management to examine the costs and benefits of
                                                               completed to fully integrate this contract. The OIG plans

18   Office of Inspections and Evaluations
on issuing a lessons learned report as a guide for Amtrak to
use in managing similar contracts in the future.
Mechanical Supply Chain Effectiveness
At the request of the Vice President of Procurement, the
OIG is sponsoring and helping to facilitate an initiative to
improve the efficiency and effectiveness of the material
supply chain in providing parts and materials for Rolling
Stock maintenance. Cross functional teams have been
established to evaluate current practices in demand plan-
ning, supplier management, order fulfillment and warranty
management. Facilitated by industry experts from the
Thomas Group, the teams are reviewing current processes
and revising them to more align with industry best practices.
The OIG anticipates continuing in this facilitation role for
another year and then producing a report that documents
the overall results.
                                                                Empire Builder
AMTRAK’S RIGHT-OF-WAY MAINTENANCE –
PERFORMANCE AND COSTS BENCHMARKED                               HARASSMENT AND INTIMIDATION COMPLAINT
AGAINST EUROPEAN RAILROADS                                      ALLEGATION UNSUBSTANTIATED – ADMINISTRATIVE
For the last year, the OIG has been evaluating the efficiency   POLICIES NOT FOLLOWED
and effectiveness of Amtrak’s Right–of–Way maintenance          Amtrak’s Statement of Policy Against Harassment and
programs. As part of this effort, the OIG engaged a             Intimidation states, in part, “Amtrak will, under no circum-
European consultant that has extensive experience evalu-        stances, tolerate harassing or intimidating conduct by any
ating the infrastructure maintenance programs of European       employee that is calculated to discourage or prevent any
Railroads. The results show that Amtrak’s infrastructure        individual from receiving proper medical treatment or from
performance is in line with comparable European                 reporting an accident, incident, injury or illness.” This
Railroads, but Amtrak’s costs are somewhat higher. This is      Statement of Policy conforms to Federal Railroad
partially attributable to the fact that the average age of      Administration (FRA) Regulations 49 CFR Part 225.33.
Amtrak’s infrastructure is significantly older than the
average age of the railroad infrastructure in Europe and        During this reporting period, one formal investigation that
confirms that a backlog of maintenance exists in Amtrak’s       was opened in the previous reporting period was concluded.
Northeast Corridor to be able achieve a State-of-Good-          The OIG concluded that management did not harass and
Repair. The bench marking exercise has also identified          intimidate an employee who sustained a workplace injury as
European best practices that may have applicability for         defined by FRA 49 CFR 225.33. It was determined,
Amtrak. The OIG is continuing to work with Amtrak’s             however, that administrative policies and procedures were
Engineering Department to identify the opportunities for        compromised and a letter was issued to the General
efficiency improvements offered by adopting European            Superintendent that outlined our concerns. Management
practices. The OIG plans on issuing a formal report on this     immediately addressed these concerns with refresher
ongoing evaluation during the next reporting period.            training for the management staff.




                                                                                      Office of Inspections and Evaluations   19
Office of Counter-Terrorism and
Intelligence
                                                                Station Action Team (SAT)
                                                                The CT&I continued to assist the Station Action Team at
                                                                Washington Union Station. The SAT is intended to provide
                                                                an informal organization where stakeholders can discuss
                                                                crisis and risk management, incident response, emergency
                                                                preparedness, and risk mitigation. The SAT model being
                                                                used in Washington, DC, will be used as the base model for
                                                                the other 10SS-designated stations.
                                                                Homeland Defense Operational Systems (HOPS)
                                                                The OIG arranged for the services of the Lawrence
                                                                Livermore National Laboratory (LLNL) HOPS program to
                                                                undertake a scientific assessment of critical vulnerabilities
Union Station | Washington, DC
                                                                at additional 10SS-designated stations. These assessments
                                                                will provide important decision support tools to managers
                                                                charged with mitigating vulnerabilities at these important
SIGNIFICANT COUNTER-TERRORISM                                   shared facilities.
AND INTELLIGENCE EFFORTS
The OIG Counter-Terrorism and Intelligence (CT&I) unit          COUNTER-TERRORISM AND INTELLIGENCE UNIT –
is responsible for the oversight of Amtrak’s rail security,     ORGANIZATIONAL TRANSITION
emergency preparedness, and related counter-terrorism           In August 2007, Amtrak abolished its Risk Management
and intelligence efforts. Working with other entities within    Department and reorganized its security assets. As part of
the Amtrak security program, this unit works to increase        the restructuring, the Amtrak Police department became
awareness about the possibilities of terrorist attack against   aligned with the Operating Department and the OIG
passenger rail services, and the critical importance of secu-   Counter-Terrorism and Intelligence Unit transitioned from
rity preparedness and risk mitigation. During this reporting    an oversight entity and assumed expanded responsibilities
period, we have undertaken various security oversight and       as the Office of Security Strategy and Special Operations
outreach activities some of which are highlighted below.        (OSSSO), under the direct supervision of Mr. Alex
Given the highly confidential nature of this unit, detailed     Kummant, CEO and President.
activities and progress of the unit are generally not publi-    The OSSSO is responsible for formulating and imple-
cized. The OIG is willing to discuss projects and highlights    menting Amtrak’s security strategy. In that regard, OSSSO,
with Congressional members and staff.                           working closely with Amtrak Police, has developed and
                                                                resourced protocols for emergency response, passenger
TEN STATION STRATEGY (10SS) – ASSESSING                         screening, visible deterrence, intelligence, policy and
SECURITY AT MAJOR STATIONS                                      resourcing, and public awareness initiatives, among others.
                                                                These initiatives are currently being implemented in stages.
The OIG has developed a security assessment program
whereby the ten major stations in Amtrak’s national system      While part of the OIG, the Counter-Terrorism and
are to be evaluated for vulnerabilities and detailed recom-     Intelligence Unit successfully pioneered new security para-
mendations are to be formulated to improve the security         digms for Amtrak, and placed increased emphasis on
preparedness of the stations. During this reporting period,     protecting passengers, employees and infrastructure
the OIG continued to facilitate implementation of the Ten       through partnerships with Federal, State, regional and local
Station Security Strategy (10SS). The OIG procured              governments, as well as with other public and private part-
funding and coordinated the development of security             ners. Many of the efforts initiated by the OIG will transfer
support product packages at these sites. The OIG provided       to the OSSSO.
technical reviews and facilitated stakeholder outreach
initiatives described here.                                     The OIG will continue to provide security oversight and
                                                                review of the OSSSO progress, in keeping with its statutory
                                                                mission.
20     Office of Counter-Terrorism and Intelligence
                                                                 Other OIG Activities
COORDINATION WITH INDEPENDENT                                     TEAM MATE IMPLEMENTATION
CERTIFIED PUBLIC ACCOUNTANTS                                      OIG SECURE SUBNET AND TEAMMATE
Section 805(1) of the Rail Passenger Service Act of 1970
                                                                  IMPLEMENTATION (PHASE II)
(Public Law 91-518; 49 U.S.C. § 24315(d)) requires Amtrak
to have its financial statements audited annually by an inde-     As previously reported, the OIG has implemented the
pendent certified public accountant in accordance with            TeamMate application for electronic work papers and
generally accepted accounting principles (GAAP), a                automation of various audit processes. All new audits are
common set of accounting principles, standards and proce-         now created in TeamMate. In order to protect the confi-
dures that the U.S. government and private companies use          dentiality and chain of custody of OIG information, a
to compile their financial statements, and to report the audit    secure subnet with internal firewalls was built to host the
findings to Congress in Amtrak’s annual report. The               TeamMate application and related databases.
Federal Accounting Standards Advisory Board (FASAB)               During this semi-annual period, the OIG completed Phase
promulgates the GAAP for federal reporting entities,              II by implementing PricewaterhouseCoopers Global Best
including Amtrak (as defined by FASAB Concepts                    Practices (GBP) in the OIG TeamMate environment. GBP
Statement 2, Entity and Display, June 5, 1995). In March          provides continuously updated best practices and bench
2007, Amtrak’s external auditors, KPMG LLP of McLean,             marking information for standardized business processes,
Virginia (a member of KPMG International, a Swiss associ-         which would be helpful in performing audits and making
ation), reported that Amtrak’s Consolidated Financial             value-added recommendations to management. The OIG
Statements for FY 2005 and FY 2006 presented fairly, in all       also installed security cameras and video server in the
material respects, Amtrak’s financial position and                secure subnet enclosures, which allow the administrators to
conformed with GAAP.                                              remotely monitor and record any activity near the OIG
As part of the annual audit process, the OIG informs the          racks in the data center. The OIG resolved the slow
external auditors on the scope of ongoing audit activities        response time issue in our LA and Chicago offices by modi-
being conducted by the OIG, and continues to coordinate           fying the system configuration.
significant audit issues with Amtrak management and the           In our next phase, the OIG plans to upgrade the TeamMate
external auditors, as necessary.                                  software to the latest release, update the TeamMate
Review of Indianapolis Distribution Center Maintenance            protocol and library, implement 360o reporting, test/install
of Equipment Cycle Inventory                                      new software capability, and configuration management
Controls are effective in preventing fraud, waste, and abuse      tools. The OIG also plans to extend the secure subnet
Audit Report Number 210-2007 – Issued 07/24/07                    access and capabilities to other OIG groups.

At the request of Amtrak’s external auditors, KPMG, the
OIG has performed several limited reviews of Maintenance          INFORMATION TECHNOLOGY
of Equipment cycle inventories. This audit review of the
Indianapolis Distribution Center Cycle Inventory was              INFORMATION TECHNOLOGY OUTSOURCING (ITO)
performed to ensure that the internal controls over               SCOPE OF WORK AND LEGAL TERMS REVIEW
Amtrak’s inventory were adequate; to determine whether
                                                                  Amtrak Information Technology (AIT) department is
Amtrak’s inventory levels were being properly recorded; to
                                                                  currently undertaking a major initiative to split the current
determine if controls were effective in preventing fraud,
                                                                  monolithic information technology outsourcing contract
waste, and abuse in the requisitioning of materials for
                                                                  with IBM into four (4) outsourcing agreements, each for a
Maintenance of Equipment; and to review compliance with
                                                                  different “Tower of Service” (i.e., Data Center, Seat
Amtrak’s policies and procedures related to Maintenance
                                                                  Management, Data Network Services and Voice Services).
of Equipment Inventory. The OIG review found that the
                                                                  The goal is to award the contracts to the best-of-breed
net inventory variance was less than .04 percent, and that
                                                                  vendors.
the inventory was kept in an orderly manner in a secure
area. The OIG determined that controls were effective in          The OIG assisted management in reviewing the scopes of
preventing fraud, waste, and abuse in the requisitioning of       work (SOWs) for all Towers of Service as well as legal
materials.                                                        terms. The OIG identified issues such as water-based fire

                                                                                                       Other OIG Activities   21
suppression system, tower demarcation points, coordina-
tion and hand-offs between service providers for incident
management, lack of contract guide map, incomplete
appendices, lack of standard for backup tape storage, and
non-inclusion of cell phones and blackberries. Due to the
tight deadlines, the OIG provided our feedback to informa-
tion technology management as soon as possible.
Management took appropriate action to address OIG
concerns and made appropriate changes to the SOWs. AIT
will be working with the Procurement Department to eval-
uate and rank the vendor responses so that final selections
can be made in time to transition to new agreements by
March 2009.
The OIG will be providing necessary oversight by
reviewing the terms and conditions of the winning
proposals, particularly important provisions such as audit
clause before the contracts are finalized.




22   Other OIG Activities
NATIONAL RAILROAD PASSENGER CORPORATION

                              Office of the Inspector General




                                                                Appendices
Appendix 1
 INSPECTOR GENERAL AUDIT REPORTS ISSUED WITH QUESTIONED COSTS
 4/1/07 – 9/30/07
                                                   Number   Questioned Costs   Unsupported Costs
 A. For which no management decision
    has been made by the commencement
    of the reporting period.                         2          $871,275             $277,348
 B. Reports issued during the
    reporting period.                                3          $207,435                  $0

 Subtotals (A + B)                                   5         $1,078,710           $277,348

 LESS
 C. For which a management decision
    was made during the reporting period.            3
     (i) dollar value of recommendations
         that were agreed to by management.                     $202,203                  $0
     (ii) dollar value of recommendations
          that were not agreed to by management.                  $5,232                  $0

 D. For which no management decision
    has been made by the end of the
    reporting period.                                2          $871,275             $277,348




24   Appendix 1
                                                          Appendix 2
INSPECTOR GENERAL AUDIT REPORTS ISSUED WITH FUNDS TO BE PUT TO
BETTER USE
4/1/07 – 9/30/07
                                                 Number        Dollar Value
A. For which no management decision
   has been made by the commencement
   of the reporting period.                        0                  $0
B. Reports issued during the
   reporting period.                               0                  $0

Subtotals (A+B)                                    0                  $0

LESS
C. For which a management decision
   was made during the reporting period.           0                  $0
   (i) dollar value of recommendations
       that were agreed to by management.                             $0
   (ii) dollar value of recommendations
        that were not agreed to by management.                        $0

D. For which no management decision
   has been made by the end of the
   reporting period.                               0                  $0




                                                                 Appendix 2   25
Appendix 3
 OFFICE OF THE INSPECTOR GENERAL DETAILED LISTING
 OF ALL ISSUED AUDIT REPORTS
 4/1/07 – 9/30/07
 Date               Report                                                Questioned   Unsupported Funds to be Put
 Issued             Number     Report Title                                    Costs         Costs to Better Use
 4/19/07            210-2006   GSA Leased Vehicles                               $0             $0             $0

 5/8/07             203-2005   eTrax Procurements – Fuel                    $127,202            $0             $0

 6/7/07             212-2006   CSX – High Speed Agreement                    $64,037            $0             $0

 6/7/07             214-2005   Brandywine Realty                                 $0             $0             $0

 6/22/07            106-2005   Capital Budgeting, Submissions
                               And Approvals                                     $0             $0             $0

 7/24/07            210-2007   Cycle Inventory Review –
                               Beechgrove/Indianapolis                           $0             $0             $0

 7/26/07            222-2006   ThyssenKrupp Elevator Corporation –
                               Manufacture of Elevators                          $0             $0             $0

 7/25/07            304-2007   Thames River Project Modification Review      $16,196            $0             $0

 8/3/07             302-2007   Non-Traction Utilities Follow-up Audit            $0             $0             $0

 8/29/07            205-2007   Chemcoa Low Foam Cleaner                          $0             $0             $0

 9/17/07            403-2007   Station Audit – Milwaukee                         $0             $0             $0

 9/28/07            404-2007   Chicago EEV Review                                $0             $0             $0

 TOTAL                                                                      $207,435            $0             $0




26   Appendix 3
                                            Appendix 4
OFFICE OF THE INSPECTOR GENERAL
SUMMARY OF REPORTS TO PRESIDENT OF AMTRAK
CONCERNING INFORMATION OR ASSISTANCE
UNREASONABLY REFUSED OR NOT PROVIDED
4/1/07 – 9/30/07

NONE




                                                  Appendix 4   27
Appendix 5
 OFFICE OF THE INSPECTOR GENERAL
 REVIEW OF LEGISLATION AND REGULATIONS
 4/1/07 – 9/30/07
 Section 4(a) of the Inspector General Act of 1978 (P.L. 95-452), as amended, provides that the Inspector General shall …review
 existing and proposed legislation and regulations relating to programs and operations of such establishment and to make recom-
 mendations in the semiannual reports… concerning the impact of such legislation or regulations on the economy and efficiency in
 the administration of such programs and operations administered or financed by such establishment or the prevention and detec-
 tion of fraud and abuse in such programs and operations.
 The Office of Inspector General has an agreement with Amtrak’s Government and Public Affairs Department that allows the OIG
 to review and comment on the company’s annual legislative program and other legislative and regulatory concerns of the company.
 Existing legislation and regulations are reviewed as necessary, as a part of every audit and investigation.




28   Appendix 5
                                                                                            Appendix 6
GLOSSARY OF AUDIT TERMS AND ABBREVIATIONS
The terms we use in reporting audit statistics are defined below:
Questioned Cost                  A cost or expenditure of funds for an intended purpose that is unnecessary, unreasonable, or
                                 an alleged violation of Amtrak’s corporate policy or procedure.
Unsupported Cost                 A cost that is not supported by adequate documentation at the time of the audit.
Funds To Be Put To Better Use    Funds identified in an audit that could be used more effectively by taking greater efficiency
                                 measures.
Management Decision              Management’s evaluation of our audit finding and its final decision concerning agreement or
                                 non-agreement with our recommendation.

Certain abbreviations used in the text are defined below:
10SS    10 Station Strategy                                       GBP         Global Best Practices
AAMP    Amtrak/Alaskan Airlines Mileage Plan                                  (Pricewaterhouse Coopers)
AAMPS Amtrak’s Accounting, Material                               GSA         Government Services Administration
        and Purchasing System                                     HHP         High Horse Power Locomotives
AHS     Amtrak Health Services                                    HOPS        Homeland Defense Operational System
AIT     Amtrak Information Technology                             ITO         Information Technology Outsourcing
Amtrak National Railroad Passenger Corporation                    LSA         Lead Service Attendant
ATS     Amtrak Telephone System                                   MLOA        Medical Leave of Absense
CEO     Chief Executive Officer                                   NEC         Northeast Corridor
Chemcoa Chemical Company of America                               NRPC        National Railroad Passenger Corporation
CIO     Chief Information Officer                                             (“Amtrak”)
COO        Chief Operating Officer                                OIG         Office of Inspector General
CSX        CSX Corporation                                        OSSSO       Office of Security, Strategy and
                                                                              Special Operations
CTI        Counter-terrorism and Intelligence Unit
                                                                  Pcard       Procurement Card
CUS        Chicago Union Station
                                                                  PCI         Payment Card Industry
DSS        Data Security Standards
                                                                  P.L.        Public Law
EEV        Emergency Exchange Voucher
                                                                  RCM         Reliability Centered Management
eTrax      Electronic Transaction Express
           Software System                                        RPU         Revenue Protection Unit
FARS       Federal Acquisition Regulation System                  SAT         Station Action Plan
FY         Fiscal Year                                            SOW         Statement of Work
GAAP       Generally Accepted Accounting Principles               UP          Union Pacific Railroad
GAAS       Generally Accepted Auditing Standards




                                                                                                                    Appendix 6   29
Reporting Requirements Index
 INDEX OF REPORTING REQUIREMENTS PURSUANT
 TO THE INSPECTOR GENERAL ACT AMENDMENTS OF 1988 (P.L. 100-504)
 Topic                              Reporting Requirements                                                             Page
 Section 4(a)(2)                    Review of Legislation and Regulations                                                 28
 Section 5(a)(1)                    Significant Problems, Abuses, and Deficiencies                          6-9, 12-17, 18-20
 Section 5(a)(2)                    Recommendations for Corrective Action to Significant Problems           6-9, 12-17, 18-20
 Section 5(a)(3)                    Previous Reports’ Recommendations for Which Corrective Action
                                    Has Not Been Completed                                                              9-10
 Section 5(a)(4)                    Matters Referred to Prosecutive Authorities                                           17
 Section 5(a)(5)                    Information or Assistance Refused or Not Provided                                     27
 Section 5(a)(6)                    Audit Reports Issued in This Reporting Period                                         26
 Section 5(a)(7)                    Summary of Significant Reports                                          6-9, 12-17, 18-20
 Section 5(a)(8)                    Audit Reports with Questioned Costs                                                   24
 Section 5(a)(9)                    Audit Reports with Recommendations That Funds Be Put to Better Use                    25
 Section 5(a)(10)                   Previous Audit Reports Issued with No Management Decision Made by
                                    End of This Reporting Period                                                           9
 Section 5(a)(11)                   Significant Revised Management Decisions                                               9
 Section 5(a)(12)                   Significant Management Decisions with Which the IG is in Disagreement                  9




30   Reporting Requirements Index
Stop Fraud, Waste, Mismanagement, and Abuse

Who pays? You pay. Act like it’s your money… it is!
Tell Us About It
Maybe you are aware of fraud, waste, mismanagement, or some other type of abuse at Amtrak.
Amtrak’s Office of Inspector General has a toll free hotline number for you to call. You can also write to us.
We will keep your identity confidential. If you prefer, you can remain anonymous. You are protected by law from reprisal by your
employer.

Call the hotline:
Nationwide           (800) 468-5469
Philadelphia         (215) 349-3065
                     ATS 728-3065

Write to us:
Inspector General
P.O. Box 76654
Washington, DC 20013-6654




National Railroad Passenger Corporation
Office of Inspector General
(800) 468-5469
       National Railroad Passenger Corporation
                 Office of the Inspector General
10 G Street, NE, Suite 3W-300, NE, Washington, DC 20002-4285



         Amtrak is a registered service mark of the National Railroad Passenger Corporation.
